No. 21IN THE

~upreme QI:ourt of tbe mlntteb ~tates
JOEL ZUPNIK,

Petitioner,
v.
UNITED STATES,

Respondent.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that three copies of
the Petition for a Writ of Certiorari in Zupnik v. United States, No. 21-_, were
served via overnight mail on all parties required:
Elizabeth B. Prelogar
Acting Solicitor General

DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
su premectbriefs@usdoj.gov

Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.

Date: August 3, 2021

